                MANAGEMENT ISSUES AT THE
        JOINT SIMULATION SYSTEM PROGRAM OFFICE

Report No. D-2001-089                     March 30, 2001




             Office of the Inspector General
                 Department of Defense
  Additional Copies

  To obtain additional copies of this audit report, visit the Inspector General, DoD,
  Home Page at www.dodig.osd.mil/audit/reports or contact the Secondary Reports
  Distribution Unit of the Audit Followup and Technical Support Directorate at
  (703) 604-8937 (DSN 664-8937) or fax (703) 604-8932.

  Suggestions for Future Audits

  To suggest ideas for or to request future audits, contact the Audit Followup and
  Technical Support Directorate at (703) 604-8940 (DSN 664-8940) or
  fax (703) 604-8932. Ideas and requests can also be mailed to:

                    OAIG-AUD (ATTN: AFTS Audit Suggestions)
                     Inspector General, Department of Defense
                        400 Army Navy Drive (Room 801)
                            Arlington, VA 22202-4704

  Defense Hotline

  To report fraud, waste, or abuse, contact the Defense Hotline by calling
  (800) 424-9098; by sending an electronic message to Hotline@dodig.osd.mil; or
  by writing to the Defense Hotline, The Pentagon, Washington, DC 20301-1900.
  The identity of each writer and caller is fully protected.




Acronyms
JSIMS                 Joint Simulation System
RDT&E                 Research, Development, Test, and Evaluation
STRICOM               Simulation, Training, and Instrumentation Command
                        Office of the Inspector General, DoD
Report No. D-2001-089                                                      March 30, 2001
   (Project No. D2000AL-0284)


                          Management Issues at the
                   Joint Simulation System Program Office

                                 Executive Summary

Introduction. We performed this audit in response to a request from the Director,
Joint Staff, to evaluate the management of the Joint Simulation System. The Joint
Simulation System is a joint training, analysis, and evaluation tool that will realistically
represent the full range of military Joint Task Force operations and provide a synthetic
battlefield. The Director, Joint Staff, specifically requested that we determine whether
the transfers of $2.1 million in Research, Development, Test, and Evaluation funds
between the Joint Simulation System Program Office and the Air Force were
appropriate; adequate information was available to document and support obligations
and deliverables for FY 1998 through FY 2000; conflicts of interest existed in the
MITRE contract awards and direct hiring practices; and moving expenses were
reimbursed by the proper organization.

Objectives. The overall audit objective was to evaluate the management of the Joint
Simulation System and to address specific management concerns raised by the Director,
Joint Staff. This report deals exclusively with the results of our audit of the four
concerns raised by the Director, Joint Staff. The management of the Joint Simulation
System and the adequacy of its management control program will be discussed in a
subsequent report.

Results. We concluded that the four concerns raised by the Joint Staff do not warrant
further action. In coordination with the Office of the General Counsel, DoD, we
reviewed the $2.1 million transfers and did not identify improprieties. We found no
indications that the Joint Simulation System Joint Program Office made significant
errors in processing obligations. Also, deliverables were adequately recorded. We did
not identify any conflicts of interest or improprieties in the hiring practices of the Joint
Simulation System Joint Program Office for contractor or direct-hire personnel.
Further, the Joint Simulation System Joint Program Office appropriately reimbursed
moving expenses in accordance with the Joint Travel Regulation.

Summary of Recommendations. This report contains no recommendations for
corrective action.

Management Comments. We provided a draft of this report on February 26, 2001.
No written response to this report was required, and none was received. Therefore, we
are publishing this report in final form.
Table of Contents

Executive Summary                            i

Introduction
     Background                              1
     Objectives                              2

Audit Results
     Joint Staff Concerns                    3

Appendixes
     A. Audit Process
         Scope                               7
         Methodology                         7
         Management Control Program Review   8
         Prior Coverage                      8
     B. Report Distribution                  9
Background
    This audit was performed in response to a request from the Director, Joint Staff,
    to evaluate the management of the Joint Simulation System (JSIMS) and to
    address four specific management concerns. This report deals exclusively with
    the results of our audit of those four management concerns.

    JSIMS is a joint training, analysis, and evaluation software tool that will
    realistically represent the full range of military Joint Task Force operations and
    provide a synthetic battlefield. The JSIMS Mission Needs Statement states that:
               The mission of the JSIMS is to provide readily available,
               operationally valid, computer-simulated environments for use by the
               Unified Commands, their components, other joint organizations, and
               the Services to jointly educate, train, develop doctrine and tactics,
               formulate and assess operational plans, assess warfighting situations,
               define operational requirements, and provide operational input to the
               acquisition process.

    JSIMS software will be compliant with the High-Level Architecture in order to
    support interoperability with other DOD simulations. It will interface with
    command, control, communications, computers, and intelligence functions and
    equipment in the field. JSIMS will provide flexible support for joint force
    training by using efficient, composable simulations tailored to the users’ needs.
    JSIMS will be composed of specific land, maritime, air and space, and other
    functional domains that will operate in a joint synthetic battlespace. It will
    create a coherent operational environment between the levels of war,
    synchronized between types of events, and realistic in the context of the specific
    joint training scenarios.

    JSIMS software will provide the core infrastructure and life-cycle applications to
    support the effective design, planning, preparation, execution, and post-
    execution assessment for training exercises and other uses. JSIMS will facilitate
    scenario design, development, and execution by providing tools that
    systematically link scenario objectives, events, performance measures, and
    feedback.

    On December 16, 1999, the Under Secretary of Defense (Acquisition,
    Technology, and Logistics) restructured the JSIMS Program. The Under
    Secretary designated the Army as the Program Executive Office for JSIMS, and
    the Commander, U.S. Army STRICOM, as the Program Manager. The JSIMS
    Program Manager reports directly to the Assistant Secretary of the Army
    (Acquisition, Logistics, and Technology). The Under Secretary also designated
    JSIMS as an Acquisition Category 1D program and further directed that JSIMS
    transition to the High-Level Architecture. Initial Operating Capability for
    JSIMS, originally scheduled for December 1999, was delayed three times and is
    scheduled for March 2003.



                                            1
     JSIMS is projected to expend nearly $1.6 billion in Research, Development,
     Test, and Evaluation funds from 1996 through 2007. Nine developmental
     agents fund the JSIMS. Each of the developmental agents is independently
     funded through its respective Department or agency. The nine developmental
     agents represent each Military Department, the Intelligence Community, and the
     Joint Staff. The Army is the single largest developmental agent, with a
     projected budget of $627 million from 1996 through 2007. The Joint Staff
     Director for Operational Plans and Interoperability is responsible for the fiscal
     oversight of the JSIMS common components. The JSIMS Program Manager,
     who is also the Deputy to the Commander, U.S. Army Simulation, Training,
     and Instrumentation Command (STRICOM), executes those funds on behalf of
     the Joint Staff.



Joint Staff Concerns
     On August 25, 2000, the Director, Joint Staff, requested that the Inspector
     General, DoD, evaluate the management of JSIMS to include the following
     concerns:

             1. Were the transfers of $2.1 million in FY 1998 and FY 2000 for
                Research, Development, Test, and Evaluation (RDT&E) funds legal
                and appropriate?

             2. Were adequate records maintained to identify what is being procured
                through JSIMS contracts and whether obligations are being processed
                on time?

             3. Did the JSIMS Joint Program Office violate conflict of interest
                policies in its contract awards to the MITRE Company or in its direct
                hiring practices?

             4. Should the Office of the Chief of Naval Operations, rather than the
                JSIMS Joint Program Office, have paid the moving expenses of the
                JSIMS Program Office Alliance Executive Officer?

Objectives
     The audit overall objective was to evaluate the management of JSIMS and to
     address specific management concerns. This report deals exclusively with the
     results of our audit of the management concerns raised by the Director, Joint
     Staff. The management of the JSIMS and the adequacy of its management
     control program will be discussed in a subsequent report. See Appendix A for a
     discussion of the audit scope, methodology, and prior audit coverage.




                                         2
       Joint Staff Concerns
       The four concerns raised by the Joint Staff do not warrant further action.
       Further action is not required because:

           • We did not identify improprieties in the transfers of $2.1 million
             in FY 1998 and FY 2000 RDT&E funds.

           • There were no indications that the Joint Simulation System Joint
             Program Office had made significant errors in processing
             obligations. Also, deliverables were adequately recorded.

           • No conflicts of interest or improprieties were identified in the
             hiring practices of the Joint Program Office for contractor or
             direct-hire personnel.

           • The Joint Simulation System Joint Program Office appropriately
             reimbursed moving expenses in accordance with the Joint Travel
             Regulation.

       Details that discuss the concerns are provided below.

Concern 1. The Air Force provided $2.1 million in FY 1998 RDT&E funds
to satisfy JSIMS requirements. Subsequent to that transaction, the JSIMS
Joint Program Office returned $2.1 million in FY 2000 RDT&E funds to
the Air Force. The return of $2.1 million appears to be a loan repayment.
Were these transfers legal and appropriate?

Results. The transactions were allowable. Towards the end of FY 1999, the
JSIMS had a shortfall of about $4 million. TRW, the integration and
development contractor, had exhausted available government funds and was
continuing development with its own funds at expenditure levels which would
easily exceed $2.1 million by the end of FY 1999. On September 30, 1999, the
Air Force provided $2,122,999 of expiring FY 1998 RDT&E funds to the
JSIMS Joint Program Office to be applied towards the shortfall. Those Air
Force funds were available for obligation until the end of the day on
September 30, 1999. The transaction took place at the direction of the Air
Force Program Executive Officer for Airlift, Trainers, and Modeling and
Simulation, which had responsibility for JSIMS program management at that
time, and at the direction of the Under Secretary of Defense (Acquisition,
Technology, and Logistics). Those funds were transferred from the Air Force
Electronic Systems Center, one of the nine JSIMS developmental agents, to the
JSIMS Joint Program Office, in the form of a purchase request to the primary
JSIMS contractor. Those funds were totally and immediately applied to the
JSIMS integration and development contract.

On November 23, 1999, the Deputy Air Force Program Executive Officer,
under the authority of the Program Executive Officer for Airlift, Trainers, and
Modeling and Simulation, instructed that $2,122,999 of FY 2000 RDT&E funds
be transferred to the National Air and Space Model, a component of the Air

                                    3
Force Electronic Systems Center. On December 8, 1999, the JSIMS Joint
Program Office complied with that direction and provided the funds to the
National Air and Space Model with a Military Interdepartmental Purchase
Request. According to both the JSIMS Joint Program Office and the National
Air and Space Model Program Office, those funds were used by the Air Force
to provide JSIMS with components for the common use of all JSIMS users. The
funds were used by the National Air and Space Model for Life Cycle
Applications prototyping, support to the Common Component Workstation, and
support to the Alliance Common Component High Level Architecture.

The Joint Staff was concerned because the two transfers involved exactly the
same amount of money. The two transactions give the appearance of being part
of a tactic to keep Air Force funds from expiring by lending it to the Joint
Program Office. During the audit, the Office of the General Counsel, DoD,
reviewed the documentation pertinent to the original transaction of
September 30, 1999, and the subsequent transaction of December 8, 1999, and
compared the nature of the transactions to relevant legal criteria. Based on the
results of the Office of the General Counsel, DoD, review, we concluded that
the funds were used appropriately. The FY 1998 RDT&E funds were obligated
for JSIMS work performed during FY 1999 and were not diverted to any other
program. The FY 2000 RDT&E funds were obligated against FY 2000 JSIMS
requirements.

Concern 2. According to the Joint Staff, the Joint Program Office did not
provide adequate information to the Joint Staff regarding JSIMS
obligations and deliverables. Did the JSIMS Program Office maintain
adequate records to identify what deliverables were being processed through
the JSIMS contracts and whether obligations were being processed on time?

Results. The JSIMS Joint Program Office had adequate documentation to
support obligations and purchases. Although the JSIMS Joint Program Office
may not have provided the Joint Staff with sufficient information to clearly
demonstrate that obligations were processed on time or to specifically identify
what was delivered on JSIMS contracts, the Joint Program Office was able to
provide the accounting records and documentation to support obligations and
deliverables. Those records confirmed that obligations were processed on time
by the JSIMS Joint Program Office. Except for the differences in “element of
resource” codes between the records of the Defense Finance and Accounting
Service and JSIMS Joint Program Office, obligation differences were minimal
between the two accounting systems.

JSIMS Joint Program Office personnel provided documentation to support
receipt of the following deliverables from FY 1998 to FY 2000 for the high-
level design of JSIMS:

   •   Build 0 in March 1998; the initial software version of the Universal Role
       Player workstation was released in March 1999;

   •   The initial test version of the JSIMS Test Harness was released in March
       1999;

                                    4
   •   The Core Infrastructure team successfully delivered software in June
       1999;

   •   Build 1 was delivered July 1999;

   •   The Synchronous Parallel Emulation and Discrete Event Simulation,
       version 0.73, was successfully integrated into the core infrastructure in
       September 1999;

   •   The Synthetic Natural Environment for Build 2 was completed in
       September 1999;

   •   JSIMS Core Infrastructure, version .2, was completed in October 1999,
   •   Version .21 was completed in November 1999,

   •   Version .24 was completed in December 1999, and

   •   The JSIMS Final Build 2/2a (1.4 million lines of code) was completed in
       March 2000.

No deliverables were identified after March 2000, mainly due to the
transitioning of the JSIMS program from a high-level design development to the
High-Level Architecture development.

Concern 3. Did the JSIMS Joint Program Office violate conflict of interest
policies in awarding contracts for hiring personnel from the MITRE
Company or violate policies in hiring employees directly for the JSIMS
Joint Program Office?

Results. The hiring and contracting practices of the JSIMS Joint Program
Office regarding the MITRE contract did not violate any conflict of interest
policies. JSIMS obtained MITRE services with Military Interdepartmental
Purchase Requests to the U.S. Army Communication Electronics Command and
the U.S. Air Force Electronics Systems Center, which has existing Sole
Selection Contracts with MITRE to provide personnel for research and
development projects. MITRE personnel were provided for engineering
services and support for JSIMS, which was within the scope of work allowed on
those contracts. The MITRE contracts were awarded without competition. The
Sole Source Certification for MITRE, dated December 16, 1998, provides the
justification for and the certification of MITRE as a sole-source contractor. The
Justification and Approval for Sole Source Certification states that there are no
other known contractors with the knowledgeable personnel, technical
objectivity, and necessary capabilities to perform this effort; that only MITRE
can satisfy the Government's requirements for this particular effort; and that it
is not feasible to forego the effort without experiencing unacceptable delays in
work that is vital to the national defense.




                                    5
The civilian personnel hiring practices of the JSIMS Joint Program Office, as
well as the Navy support services, were in compliance with applicable laws and
regulations. Due to limited JSIMS staffing, the Naval Air Warfare Center,
Training Systems Division, performs the majority of civilian personnel hiring
tasks. The JSIMS Joint Program Office staff create the job descriptions and
conduct interviews of qualified applicants. All other functions, to include
grading a position, creating a crediting plan, issuing job announcements, scoring
the resumes, and identifying qualified applicants are performed by the Naval Air
Warfare Center, Training Systems Division, through the Navy Human Resource
Service Center, South East.

Concern 4. Should the Office of the Chief of Naval Operations, rather than
the JSIMS Joint Program Office, have paid the moving expenses of the
JSIMS Program Office Alliance Executive Officer?
Results. The JSIMS Program Office appropriately paid the moving expenses.
The Joint Travel Regulations, Volume 2, “Department of Defense, Civilian
Personnel,” November 1, 2000, states that “necessary movement cost must be
paid by the gaining department/agency.” The current JSIMS Alliance Executive
Officer transferred from the U.S. Atlantic Command (now the U.S. Joint Forces
Command). The billet for the JSIMS Joint Program Alliance Executive Officer
is an assigned, reimbursable, Navy Senior Executive Service-1 that is on loan
for 3 years to the Department of the Navy from the Assistant Secretary of
Defense (Force Management Policy) Personnel and Readiness pool. The JSIMS
Joint Program Office uses two basic types of billets, direct and reimbursable.
Direct billets are program specific and employees hired to fill direct billet
positions are employees of the program. For reimbursable billets, personnel are
assigned to work for a program and are paid by the assigning department or
agency. However, the assigning department or agency is reimbursed by the
program receiving the benefits of the personnel. Because the JSIMS Joint
Program Office is the gaining “department or agency,” it is responsible for
paying the Permanent Change of Station expenses of the JSIMS Joint Program
Office Alliance Executive.




                                    6
Appendix A. Audit Process

Scope
    We examined the program management concerns of the Director, Joint Staff,
    from September 2000 through February 2001 and reviewed documentation dated
    from November 1996 through August 2000. We reviewed and analyzed
    memorandums, modifications of contracts, Military Interdepartmental Purchase
    Requests, accounting reports, letters, schedules, and briefing charts to determine
    the legality and appropriateness of the JSIMS fund transfers and obligations and
    deliverables. We also reviewed and analyzed the contractor and civilian hiring
    practices used by JSIMS management. We interviewed officials from the Joint
    Staff, the JSIMS Joint Program Office, and the Air Force Electronic Systems
    Center.

    DoD-Wide Corporate Level Government Performance and Results Act
    Coverage. In response to the Government Performance and Results Act, the
    Secretary of Defense annually establishes DoD-wide corporate level goals,
    subordinate performance goals, and performance measures. This report pertains
    to achievement of the following goal and subordinate performance goal.

    FY 2001 DoD Corporate Level Goal 2: Prepare now for an uncertain future
    by pursuing a focused modernization effort that maintains U.S. qualitative
    superiority in key warfighting capabilities. Transform the force by exploiting
    the Revolution in Military Affairs, and reengineer the Department to achieve a
    21st century infrastructure. (01-DoD-02)

    FY 2001 Subordinate Performance Goal 2.5: Improve DoD financial and
    information management (01-DoD-2.5)

    General Accounting Office High-Risk Area. The General Accounting Office
    has identified several high-risk areas in the DoD. This report provides coverage
    of the Defense Information Management and Technology high-risk area.

Methodology
    We conducted this program audit in accordance with auditing standards issued
    by Comptroller of the United States, as implemented by the Inspector General,
    DoD. Accordingly, we included tests of management controls, as considered
    necessary. We did not rely on computer-processed data to perform this audit.

    Contacts During the Audit. We visited or contacted individuals and
    organizations within the DoD and Defense contractors. Further details are
    available on request.



                                        7
Management Control Program Review
    DoD Directive 5010.38, “Management Control (MC) Program,” August 26,
    1996, and DoD Instruction 5010.40 “Management Control (MC) Program
    Procedures,” August 28, 1996, require DoD organizations to implement a
    comprehensive system of management controls that provides reasonable
    assurance that programs are operating as intended and to evaluate the adequacy
    of those controls.

    Scope of the Review of the Management Control Program. The adequacy of
    the JSIMS management control program will be discussed in a subsequent
    report.

Prior Coverage
    During the last 5 years, no reports have been issued that exclusively focused on
    the management of JSIMS. Inspector General, DoD, Report No. 97-138,
    “Requirements Planning and the Impact On Readiness of Training Simulators
    and Devices,” April 30, 1997, states that “the Joint Simulation System program
    meets the Acquisition Category-I criteria in revised DoD Regulation 5000.2-R,
    thereby qualifying for review by the Joint Requirements Oversight Council.”
    The JSIMS Program Office did not begin implementing Acquisition Category-I
    requirements until December 1999. DoD reports can be accessed on the
    Internet at http://www.dodig.osd.mil.




                                        8
Appendix B. Report Distribution

Office of the Secretary of Defense
Under Secretary of Defense (Acquisition, Technology, and Logistics)
Assistant Secretary of Defense (Command, Control, Communications, and Intelligence)
  Director, Investment and Acquisition
Under Secretary of Defense (Comptroller/Chief Financial Officer)
  Deputy Chief Financial Officer
  Deputy Comptroller (Program/Budget)

Joint Staff
Director, Joint Staff

Department of the Army
Auditor General, Department of the Army
Program Manager, Joint Simulation System, Joint Program Office

Department of the Navy
Naval Inspector General
Auditor General, Department of the Navy

Department of the Air Force
Assistant Secretary of the Air Force (Financial Management and Comptroller)
Auditor General, Department of the Air Force
Commander, Electronics Systems Center

Other Defense Organizations
Director, Defense Contract Management Agency
Director, Defense Contract Audit Agency
Director, Defense Logistics Agency
Inspector General, Defense Intelligence Agency
Director, National Security Agency
   Inspector General, National Security Agency
Defense Systems Management College




                                          9
Non-Defense Federal Organizations
Office of Management and Budget, National Security Division
Office of Information and Regulatory Affairs

Congressional Committees and Subcommittees, Chairman and
  Ranking Minority Member
Senate Committee on Appropriations
Senate Subcommittee on Defense, Committee on Appropriations
Senate Committee on Armed Services
Senate Committee on Governmental Affairs
House Committee on Appropriations
House Subcommittee on Defense, Committee on Appropriations
House Committee on Armed Services
House Committee on Government Reform
House Subcommittee on National Security, Veterans Affairs, and International
  Relations, Committee on Government Reform
House Subcommittee on Government Efficiency, Financial Management, and
  Intergovernmental Relations
House Subcommittee on Technology and Procurement Policy




                                         10
Audit Team Members
The Acquisition Management Directorate, Office of the Assistant Inspector General for
Auditing, DoD, prepared this report. Personnel of the Office of the Inspector General,
DoD, who contributed to the report are listed below.

Mary Ugone
Charles Santoni
Sean Mitchell
Averel Gregg
John Mitton
Patricia Joyner
David Huff




                                          11
